HHS/OIG, Audit -"Audit of Postretirement Benefits Costs Claimed for Medicare Reimbursement by Blue Cross Blue
Shield of Texas,"(A-07-03-03040)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Postretirement Benefits
Costs Claimed for Medicare Reimbursement by Blue Cross Blue Shield of Texas," (A-07-03-03040)
October 22, 2004
Complete
Text of Report is available in PDF format (780 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Blue Cross Blue Shield of Texas was a Medicare contractor until its contract was terminated in 1999
and, as such, was allowed to claim reimbursement for its Medicare employees' pension costs.  Our audit objective was
to determine whether $6,000,000 for postretirement benefit (PRB) costs claimed in the period subsequent to the contract's
termination were allowable for Medicare reimbursement.  We determined that, contrary to requirements, the PRB claim
represented (1) an unauthorized retroactive change in accounting practice, (2) an immediate recognition of the transition
obligation, and (3) a request for reimbursement for deposits made to a revocable trust fund.  Therefore, we recommended
that Blue Cross Blue Shield of Texas withdraw its claims for the $6,000,000.